                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

1   Case Number: A05050024
                                                                                  11          Page 1 of 1



          We investigated an allegation that a former NSF employee1("Subject") had received a consulting
          fee and travel expenses from an active NSF award.2 Specifically, according to the annual report,3
          the NSF employee served as a panelist to review and provide feedback and future directions on
          the project. Further, the report showed that the former NSF employee was provided a one-day
          consulting fee and travel expenses by the grant.

          We requested and received confirmation of the Subject's resignation date. According to the
          records that we received from the grantee, the grantee paid the Subject a consultant fee and travel
          expenses after the effective date of the Subject's resignation. Moreover, the consultant fee was
          within the applicable Maximum Daily Consultant Rate of Pay.
I
          Given that the Subject was not employed at NSF at the time that she received the consultant fee
          and travel expenses, and that the consultant rate was within the permissible pay range, it was
          determined that this matter should be closed.

~         Accordingly, this case is closed.




I
            Redacted
            Redacted
            Redacted



NSF OIG Form 2 (1 1/02)
